CERTIFICATE OF SERVICE
State of California, County of Sacramento
I am employed in the County of Sacramento, State of California.
I am over the age of 18 and not a party to the within action; my business
address is: 655 University Avenue, Suite 150, Sacramento, CA 95825.
On the date set forth below I served the foregoing document
described as PETITION FOR REVIEW on interested parties in this action
addressed as follows:
[XX]

(VIA U.S. MAIL) I caused such document to be
placed in the U.S. Mail at Sacramento, California
with postage thereon fully prepaid.

[XX]

(FEDERAL) I declare that I am employed in the
office of a member of the bar of this court at whose
direction this service was made.

Executed on October 30, 2020 at Sacramento, California.

Vanessa R. Littlejohn

SERVICE LIST
AFTER DECISION OF THE CALIFORNIA SUPREME COURT
CASE NO. S262186;
AFTER DECISION OF THE COURT OF APPEAL
SECOND APPELLATE DISTRICT CASE NO. B293331;
PUBLIC EMPLOYMENT RELATIONS BOARD DECISION NO. 2584
CASE NO. LA-CE-5974-E
Wendi L. Ross, Deputy Executive Counsel
Sheena J. Farro, Regional Attorney
Kimberly J. Procida, Regional Attorney
Public Employment Relations Board
1031 18th Street
Sacramento, CA 95811-4124
Telephone: (916) 327-8385
Facsimile: (916) 327-6377
E-mail:
PERBLitigation@perb.ca.gov

Attorneys for Respondents,
PUBLIC RELATIONS BOARD

Jacob Rukeyser
Staff Counsel
California Teachers Association
1705 Murchison Drive
Burlingame, CA 94010
Telephone: (650) 552-5414
Facsimile: (650) 552-5019
E-mail:
jrukeyser@cta.org

Attorneys for Respondents,
CALIFORNIA TEACHERS ASSOC.

Clerk of the Court
SECOND APPELLATE DISTRICT – Div. 6
Court Place
200 East Santa Clara Street
Ventura, CA 93001
Supreme Court of California
350 McAllister Street
Room 1295
San Francisco, CA 94102

